1/22/2021

Tarjetas de crédito -Términos AAdvantage Signature

(https://www.popular.vi/es/)

AAdvantage® VISA Signature Plus - Términos y Condiciones

Tasas de Interés y Cargos por Intereses
Tasa de Porcentaje Anual
(APR) para Compras

APR para Transferencias de
Balance

1.99% APR introductorio por los primeros 6 meses.
Luego de esto, su APR será desde 13.24% hasta 26.24%, basado en su historial
de crédito. Este APR puede variar de acuerdo al mercado basado en la Tasa
Preferencial de los Estados Unidos ("Prime Rate").1
0.00% APR introductorio y 0 pagos desde la fecha de la transferencia de balance,
por 12 meses y $0 cargo por transferencia de balance. Aplica a transferencias
realizadas dentro de los primeros 90 días de apertura de la cuenta.
Luego de esto, su APR será desde 13.24% hasta 26.24%, basado en tu historial
de crédito. Este APR puede variar de acuerdo al mercado basado en el "Prime
Rate".1

APR para Adelantos en
Efectivo

24.24% hasta 28.24% cuando abre su cuenta, basado en su historial de crédito.
Este APR puede variar de acuerdo al mercado, basado en el "Prime Rate".1

https://www.popular.vi/es/tarjetas-credito/aadvantage-visa-signature/terminos/

1/6

1/22/2021

Tarjetas de crédito -Términos AAdvantage Signature

Tasas de Interés y Cargos por Intereses
APR de Penalidad y Cuándo
Aplica

29.99% Este APR podrá aplicar a su cuenta si no recibimos el pago mínimo
requerido durante un periodo de sesenta (60) días consecutivos desde su
vencimiento.
Por cuánto tiempo aplica la Tasa por Penalidad? Si su APR aumenta por esta
razón, la Tasa de Penalidad permanecerá en efecto hasta que la cuenta se
ponga al día y se hayan realizado seis (6) pagos mínimos requeridos
consecutivos en o antes de su fecha de vencimiento.

Pago de Intereses

Para Consejos del
"Consumer Financial
Protection Bureau" sobre
Tarjetas de Crédito

Su fecha de pago será por lo menos 25 días luego del cierre de cada ciclo de
facturación. No cobraremos intereses desde la fecha que compre bienes o
servicios, si usted paga el balance total adeudado de su cuenta en o antes de la
Fecha de Vencimiento. Si no paga el balance total adeudado pero se encuentra
en período de gracia, no pagará intereses sobre el monto pagado en ese ciclo de
facturación. En los ciclos posteriores usted no tendrá período de gracia hasta
que pague el balance total adeudado en su cuenta durante dos ciclos de
facturación consecutivos. Los balances relacionados a ciertas ofertas no se
toman en cuenta para determinar si cali ca para el período de gracia, para las
cuales debe referirse a los términos y condiciones de la oferta. Las
Transacciones sin Periodo de Gracia comienzan a acumular intereses en la fecha
en que se postean en la cuenta y siguen acumulando cargos por Intereses hasta
que se paguen en su totalidad.
Para conocer más sobre factores a considerar cuando solicita o utiliza una
tarjeta de crédito, visite la página de internet del "Consumer Financial Protection
Bureau (https://www.consumer nance.gov/learnmore)".

Cargos
https://www.popular.vi/es/tarjetas-credito/aadvantage-visa-signature/terminos/

2/6

1/22/2021

Tarjetas de crédito -Términos AAdvantage Signature

Cargos
Cuota Anual

Cargos por Transacciones
• Adelantos en Efectivo y
Cheques de Conveniencia
• Transferencias de Balance

$50 Cuota Anual

2% de la cantidad de cada transacción (mínimo $2; máximo $10)
2% de la cantidad de cada transferencia (mínimo $2; máximo $10)
Ninguno

• Conversión de Moneda

Cargos por Penalidad
• Cheque Devuelto
• Pago Tardío

Hasta $10
Hasta $38

Cómo calculamos tu balance: Utilizamos un método llamado "balance promedio diario" (incluyendo transacciones
nuevas).
Pérdida de APR Introductorio: Podemos terminar su APR de introducción y aplicar el APR correspondiente si cierra su
cuenta o hace un pago tardío.
Derechos de Facturación: Información sobre cómo ejercer su derecho a disputar transacciones se incluye en el
Contrato de Tarjetas de Crédito.

Con rmo haber revisado los Precios y Términos de la tarjeta de crédito y acepto sopcitarla.
Autorizo a Popular a obtener mi informe de crédito, según especi cado aquí (/es/informe-de-credito).
Con rmo haber revisado la Política de Privacidad de Popular, según especi cada aquí. (/es/privacidad)
https://www.popular.vi/es/tarjetas-credito/aadvantage-visa-signature/terminos/

3/6

1/22/2021

Tarjetas de crédito -Términos AAdvantage Signature

Estoy de acuerdo con los Términos de Uso de la página web, según especi cados aquí (/es/terminos).
Estoy de acuerdo con el Contrato de Servicios Bancarios Electrónicos, según especi cado aquí
(https://documents.popular.com/terms/mibanco/terms-conditions-es).


Acepto los puntos anteriores

Continuar

La información sobre los costos de las tarjetas descritas es correcta al 31 de diciembre de 2020.
Esta información puede haber variado después de esta fecha. Para veri car lo que puede haber
variado en dicha información puede llamar al (787) 758-0505 o sin cargos al 1-800-981-9505 o
escribir a la siguiente dirección:
Popular de Puerto Rico
División de Productos de Tarjetas (643)
PO BOX 363228, San Juan, Puerto Rico 00936-3228
AVISO IMPORTANTE USA PATRIOT ACT
El 17 de abril de 2015 entró en vigor la Sección 326 de la ley USA PATRIOT. Esta ley requiere que
las instituciones nancieras obtengan, veri quen y registren la información que identi ca a las
personas que abren cuentas. El gobierno de Estados Unidos creó esta ley como una medida
contra el terrorismo y el lavado de dinero.
Cuando solicite una cuenta:
Se le preguntará su nombre, dirección residencial o física, fecha de nacimiento, número de
seguro social y cualquier otra información que permita identi carle con certeza.
Se le requerirá que muestre su licencia de conducir u otra identi cación con foto, vigente y
emitida por el gobierno.

https://www.popular.vi/es/tarjetas-credito/aadvantage-visa-signature/terminos/

4/6

1/22/2021

Tarjetas de crédito -Términos AAdvantage Signature

Gracias por permitirnos servirle. La información recopilada por Popular, Inc. será mantenida
con dencialmente según lo requiere la Ley de Privacidad.
1Para

cada periodo de facturación el Cargo por Intereses y el APR se determinan sumando el “Prime Rate”, según
publicado por el Wall Street Journal, a un margen. Las tasas variables indicadas están basadas en la tasa preferencial
de 3.25% vigente desde el 16 de marzo de 2020.

Volver arriba

(https://www.facebook.com/PopularVI)

Contáctenos (contactanos/)
English (https://www.popular.vi/cards/credit-cards/aadvantage-visa-signature/terms/)

Seguridad (https://www.popular.com/seguridad/)
Aviso sobre el Seguro de FDIC (fdic/)
Política de Privacidad (https://www.popular.com/privacidad/)
Condiciones y Términos de Uso (terminos/)
Política de Diversidad e Inclusión (https://www.popular.com/politica-diversidad/)
Accesibilidad (accesibilidad/)
Practicas de Enlaces Web (practicas-enlaces-internet/)
ZAPortal para Empleados (https://zap.popularinc.com)
ZAPortal Retirados Popular (https://zap.popularinc.com/zaplogon/rsa_step1.jsp)
https://www.popular.vi/es/tarjetas-credito/aadvantage-visa-signature/terminos/

5/6

1/22/2021

Tarjetas de crédito -Términos AAdvantage Signature

Busque una sucursal o ATM (https://locator.popular.com/?region=pr&lang=es&region=vi)

Número ruta y tránsito
021502011

TeleBanco Popular®
1.888.724.3659

Audio impedidos (TDD)
1.800.981.9666

Contáctanos
Rte 308, Charlotte Amalie West, St Thomas 00802, USVI

© 2021 Popular. Miembro FDIC, excepto en BVI.

https://www.popular.vi/es/tarjetas-credito/aadvantage-visa-signature/terminos/

6/6

